NO._____________
IN THE SUPREME COURT OF THE UNITED STATES
TOMAS MORENO-TURRUBIATES,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
On Petition for Writ of Certiorari to the United States
Court of Appeals for the Fifth Circuit
MOTION FOR LEAVE TO PROCEED
IN FORMA PAUPERIS
Pursuant to Rule 39 and 18 U.S.C. ยง 3006A(d)(7), Petitioner Tomas MorenoTurrubiates asks leave to file the accompanying Petition for Writ of Certiorari to the
United States Court of Appeals for the Fifth Circuit without prepayment of costs and to
proceed in forma pauperis. Petitioner was represented by counsel appointed under the
Criminal Justice Act, 18 U.S.C. ยง 3006A(b) and (c), in the United States District Court
and on appeal to the United States Court of Appeals for the Fifth Circuit.
Date: December 18, 2020

Respectfully submitted,
MARJORIE A. MEYERS
Federal Public Defender
Southern District of Texas
Attorney of Record

KATHRYN SHEPHARD
Assistant Federal Public Defender
Attorneys for Petitioners
440 Louisiana, Suite 1350
Houston, Texas 77002
Telephone: (713) 718-4600

